Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




   THE OHIO MEDICAID PROGRAM
   COULD SIGNIFICANTLY LOWER
   PAYMENT RATES FOR SELECTED
   DURABLE MEDICAL EQUIPMENT
          AND SUPPLIES



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                          April 2013
                                                        A-05-12-00038
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

 The Ohio Medicaid program could have saved an estimated $3 million on selected
 durable medical equipment items by obtaining pricing similar to Medicare’s Competitive
 Bidding Program.

WHY WE DID THIS REVIEW

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 mandated the
Medicare Durable Medical Equipment, Prosthetics, Orthotics, and Supplies Competitive Bidding
Program (the Competitive Bidding Program). The Competitive Bidding Program sets lower
payment rates than conventional Medicare payment rates for selected durable medical equipment
and supplies (DME items) while ensuring access to quality items and services.

In a separate audit, we identified an estimated $8 million that the Ohio Medicaid program could
have saved on diabetic test strips if it had obtained pricing similar to the pricing that Medicare
obtained through the Competitive Bidding Program, or if it had established a manufacturer rebate
program. Diabetic test strips is just 1 of 339 DME items covered by the Competitive Bidding
Program. Because of the savings that we identified for diabetic test strips, we conducted this
review of other competitively bid DME items.

Our objective was to determine whether the Ohio Medicaid program could have achieved cost
savings for 43 selected DME items.

BACKGROUND

The Ohio Department of Job and Family Services (State agency) administers the Ohio Medicaid
program. The State agency allows eligible providers, including hospitals, physicians, podiatrists,
advanced practical nurses, clinics, and pharmacies, in the Ohio Medicaid program to bill for
DME items. The State agency reimburses providers the lesser of the dollar amount of the
submitted charge or the Medicaid maximum payment rate. Medicare’s Competitive Bidding
Program established two competitive bidding areas (CBA) in Ohio.

HOW WE CONDUCTED THIS REVIEW

Our review covered Medicaid payments for 43 selected DME items for the period April 1, 2010,
through March 31, 2011. We limited our review to paid lines of service that were reimbursed at
Ohio’s Medicaid maximum payment rate, which represented 96 percent of all lines of service for
the audit period. We compared the Ohio Medicaid program payment for DME items with the
average Ohio Medicare CBA payment for the same products during the review period.




The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                     i
WHAT WE FOUND

The Ohio Medicaid program could have saved an estimated $3 million by establishing a
competitive bidding program for DME items similar to pricing that Medicare obtained through
its Competitive Bidding Program. We determined that Medicare payment rates obtained through
competitive bids in 2 Ohio CBAs for the 43 selected DME items were significantly lower than
the Ohio Medicaid maximum payment rate.

WHAT WE RECOMMEND

We recommend that the State agency establish competitive bidding that functions similarly to
Medicare’s Competitive Bidding Program for the purchase of selected DME items, which could
have resulted in cost savings of approximately $3 million for the 1-year period we reviewed.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency indicated that it supports competitive
bidding and believes that the market is most efficient at setting prices. The State agency
concurred with our recommendation but suggested the use of a manufacturer’s model as an
alternative approach. The State agency believed that this approach yields equivalent savings
with a far more salutary effect on employment. Although we support the use of alternative
methods, we have not reviewed the manufacturer’s model and take no position as to its adequacy
and effectiveness.




The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                   ii
                                                    TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION................................................................................................................1

           Why We Did This Review. ......................................................................................1

           Objective ...................................................................................................................1

           Background ..............................................................................................................1
                 The Medicaid Program: How Payment Rates Are Determined
                  for Durable Medical Equipment Items .......................................................1
                 Obtaining Lower Rates of Payment: How the Federal Government
                  Has Obtained Lower Prices for Durable Medical Equipment Items...........2

           How We Conducted This Review ...........................................................................2

FINDING ..............................................................................................................................3

           Medicare Competitive Bidding Program Rates Significantly Lower
           Than Ohio Medicaid Maximum Payment Rates for Selected Items of
           Durable Medical Equipment...................................................................................3

           Potential Cost Savings From Competitive Bidding ..............................................3

RECOMMENDATION .......................................................................................................6

STATE AGENCY COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE....................................................6

APPENDIXES

           A: Audit Scope and Methodology..........................................................................7

           B: State and Federal Requirements for
               Durable Medical Equipment Purchases ........................................................9

           C: Potential Cost Savings for Six Selected
               Durable Medical Equipment Product Categories .........................................10

           D: Potential Cost Savings for 43 Selected
               Durable Medical Equipment Items ................................................................12

           E: State Agency Comments ....................................................................................15



The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                                                                iii
                                              INTRODUCTION

WHY WE DID THIS REVIEW

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 mandated the
Medicare Durable Medical Equipment, Prosthetics, Orthotics, and Supplies Competitive Bidding
Program (the Competitive Bidding Program). The Competitive Bidding Program sets lower
payment rates than conventional Medicare payment rates for selected durable medical equipment
and supplies (DME items) while ensuring access to quality items and services.

In a separate audit, we identified an estimated $8 million that the Ohio Medicaid program could
have saved on diabetic test strips if it had obtained pricing similar to the pricing that Medicare
obtained through the Competitive Bidding Program, or if it had established a manufacturer rebate
program. 1 Diabetic test strips is just 1 of 339 DME items covered by the Competitive Bidding
Program. Because of the savings that we identified for diabetic test strips, we conducted this
review of other competitively bid DME items.

OBJECTIVE

Our objective was to determine whether the Ohio Medicaid program could have achieved cost
savings for 43 selected DME items.

BACKGROUND

The Medicaid Program: How Payment Rates Are Determined for
Durable Medical Equipment Items

The Ohio Department of Job and Family Services (State agency) administers the Ohio Medicaid
program. The State agency allows eligible providers, including hospitals, physicians, podiatrists,
advanced practical nurses, clinics, and pharmacies, in the Ohio Medicaid program to bill for
DME items. 2 The State agency reimburses providers the lesser of the submitted charge or the
Medicaid maximum payment rate. 3 The maximum payment rates are 100 percent of the amount
set by the State agency on the Medicaid fee schedule. 4 The Medicaid maximum payment rates
used by the State may be less than the maximums permitted under Federal law but may not be
more. The State’s appropriation committee determines the total amount of funds that may be
expended for health services under Medicaid.

The Ohio Medicaid program may apply to the Centers for Medicare & Medicaid Services (CMS)
for a waiver to establish special procedures for the purchase of medical devices through
competitive bidding or through another process if the State assures, in the certification required,
1
    Report number A-05-11-00098.
2
    Ohio Administrative Code 5101:3-10-01.
3
    Ohio Administrative Code 5101:3-1-60.
4
    Ohio Administrative Code 5101:3-1-60(J)(3).

The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                      1
and CMS finds that adequate services or devices are available to beneficiaries under the special
procedures. 5

Obtaining Lower Rates of Payment: How the Federal Government Has Obtained
Lower Prices for Durable Medical Equipment Items

Under Medicare’s Competitive Bidding Program, prices for selected DME items sold in
specified competitive bidding areas (CBA) are determined by suppliers’ bids rather than a fee
schedule. The Competitive Bidding Program was intended to reduce beneficiary out-of-pocket
expenses and create savings for taxpayers and the Medicare program while ensuring that high-
quality health care products and services are available to beneficiaries.

The first round of bidding closed in December 2009, and competitive bidding became
operational as of January 2011 in nine metropolitan areas, including two in Ohio. The first round
of bidding included 339 DME items, identified by Healthcare Common Procedure Coding
System (HCPCS) codes and descriptors established by CMS from the following 9 product
categories:

      •    Oxygen supplies and equipment;

      •    Standard power wheelchairs, scooters, and related accessories;

      •    Complex rehabilitative power wheelchairs and related accessories - Group 2;

      •    Mail-order diabetic supplies;

      •    Enteral nutrients, equipment, and supplies;

      •    Continuous positive airway pressure devices (CPAP), respiratory assist devices (RAD),
           and related supplies and accessories;

      •    Hospital beds and related accessories;

      •    Walkers and related accessories; and

      •    Support surfaces - Group 2 mattresses and overlays (Miami-Fort Lauderdale-Pompano
           Beach, Florida, CBA only).

HOW WE CONDUCTED THIS REVIEW

Our review covered Medicaid payments for 43 selected DME items from 6 CBA product
categories for the period April 1, 2010, through March 31, 2011. 6 We limited our review to paid
lines of service that were reimbursed at Ohio’s Medicaid maximum payment rate for the 43

5
    Social Security Act, section 1915(a)(1)(B), 42 CFR § 431.51(d), and 42 CFR § 431.54(d).
6
    See Appendixes C and D for a detailed listing of product categories and DME items that were reviewed.

The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                                2
items, which represented 96 percent of all lines of service for the audit period. We compared the
Ohio Medicaid maximum payment rates for DME items with the average Ohio Medicare CBA
payment rates, effective January 1, 2011, for the same products.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our scope and methodology. Appendix B contains State and
Federal requirements for purchases of DME items.

                                              FINDING

MEDICARE COMPETITIVE BIDDING PROGRAM RATES SIGNIFICANTLY
LOWER THAN OHIO MEDICAID MAXIMUM PAYMENT RATES FOR SELECTED
ITEMS OF DURABLE MEDICAL EQUIPMENT

The Ohio Medicaid program could have saved an estimated $3 million by establishing a
competitive bidding program for DME items similar to pricing that Medicare obtained through
its Competitive Bidding Program. We determined that Medicare payment rates obtained through
competitive bids in 2 Ohio CBAs for the 43 selected DME items were significantly lower than
the Ohio Medicaid maximum payment rate.

POTENTIAL COST SAVINGS FROM COMPETITIVE BIDDING

For the 43 selected DME items that we reviewed, the State agency reimbursed providers
$10.5 million for 266,712 lines of service at the Medicaid maximum payment rate during the
audit period April 1, 2010, through March 31, 2011. We estimate that the State agency’s cost
could have been reduced to $7.4 million for the selected DME items if it had used a competitive
bidding program to obtain pricing similar to Medicare’s Competitive Bidding Program.
Table 1 summarizes the potential cost savings achievable through the use of competitive bidding
for six product categories of selected DME items. See Appendix C for a detailed listing of
potential cost savings for the six product categories.




The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                    3
       Table 1: Potential Ohio Medicaid Cost Savings Through Competitive Bidding

                                                    OH Medicare
                                     OH                                  Potential       Average
                                                     CBA Costs
      Product Category             Medicaid                                Cost          Savings
                                                     (Average of
                                    Costs                                Savings        Percentage
                                                     Two CBAs)

    Oxygen equipment and
                                    $5,143,707           $3,516,002      $1,627,705        32%
          supplies
       Enteral nutrients,
                                     3,229,961            2,551,848          678,113       21%
    equipment, and supplies

       Diabetic supplies             1,495,803              878,789          617,014       41%

   CPAP, RAD, and related
                                       462,191              339,442          122,749       27%
   supplies and accessories
   Hospital beds and related
                                         68,913              51,245           17,668       26%
         accessories
      Walkers and related
                                       120,940              111,166            9,774       8%
         accessories

              Total               $10,521,515            $7,448,492      $3,073,023       29%


Table 2 details the average Ohio Medicaid maximum payment rate and the average Ohio
Medicare CBA payment rate in 2011 for six product categories of selected DME items. See
Appendix D for the complete list of Ohio Medicaid and Ohio Medicare CBA payment rates for
the 43 selected DME items comprising the 6 product categories.




The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                         4
            Table 2: Average Payment Rates for DME Items by Product Category

                                             Average OH Medicaid              Average OH Medicare
           Product Category
                                                Payment Rate                   CBA Payment Rate

    Oxygen equipment and supplies                       $116                              $77

           Enteral nutrients,
                                                           13                              11
        equipment, and supplies

            Diabetic supplies                               9                               5

        CPAP, RAD, and related
                                                          68                               50
        supplies and accessories
        Hospital beds and related
                                                         238                               191
              accessories

    Walkers and related accessories                       55                                48


Table 3 illustrates three examples of potential cost savings achievable through a reduction of the
Ohio Medicaid maximum payment rate to Ohio Medicare CBA payment rates.

                 Table 3: Examples of Potential Cost Savings Using the Average
                          of Two Ohio Medicare CBA Payment Rates

                                                  Ohio Medicare
        Product
                           Ohio Medicaid          CBA Payment        Units                 Potential Cost
      Description
                           Payment Rate          Rate (Average of Reimbursed                  Savings
       (HCPCS)
                                                   Two CBAs)
        Oxygen
      concentrator              $153.64               $104.80 7             28,733           $1,403,320
        (E1390)
        Lancets
                                  0.07                 0.0411 8           20,136,885             581,956
        (A4259)

    Enteral formula
                                  0.61                   0.46             1,932,207             $289,831
       (B4150)



7
 The Ohio Medicaid reimbursement rate and the Ohio Medicare CBA rate are based on a monthly rental price per
unit for E1390 (stationary compressed gaseous oxygen system).
8
 Medicare reimburses lancets per box of 100 units. We divided the average rate of the 2 CBAs in Ohio by 100 units
for comparison to Ohio’s Medicaid maximum payment rate of $0.07 per unit.


The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                                   5
                                      RECOMMENDATION

We recommend that the State agency establish competitive bidding that functions similarly to
Medicare’s Competitive Bidding Program for the purchase of select DME items, which could
have resulted in cost savings of approximately $3 million for the 1-year period we reviewed.

                           STATE AGENCY COMMENTS AND
                      OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency indicated that it supports competitive
bidding and believes that the market is most efficient at setting prices. The State agency
concurred with our recommendation but suggested the use of a manufacturer’s model as an
alternative approach. The State agency believed that this approach yields equivalent savings
with a far more salutary effect on employment. Although we support the use of alternative
methods, we have not reviewed the manufacturer’s model and take no position as to its adequacy
and effectiveness.

The State agency’s comments appear in their entirety as Appendix E.




The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                   6
                        APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit included Medicaid payments for 43 selected DME items for the period April 1, 2010,
through March 31, 2011. We limited our review to paid lines of service that were reimbursed at
Ohio’s Medicaid maximum payment rate for the 43 items, which represented 96 percent of all
lines of service for the audit period.

Of the 339 DME items comprising the first round of bidding under the Medicare Competitive
Bidding Program, the 43 items came from 6 product categories. 9 We excluded product
categories associated with power wheelchairs and items not covered under the Ohio Medicare
Competitive Bidding Program, such as group 2 mattresses and overlays. Additionally, we
excluded DME items that (1) were included with bundled services under Ohio’s Medicaid fee
schedule, (2) were not covered by the Ohio Medicaid program, (3) were not billed at the Ohio
Medicaid maximum payment rate, or (4) were reviewed in a previous audit. 10

We did not review the overall internal control structure of the State agency. We limited our
internal control review to obtaining an understanding of the State agency’s pricing and
reimbursement policies related to the 43 selected DME items.

We performed our fieldwork in Columbus, Ohio, in June 2012.

METHODOLOGY

To accomplish our audit objective, we:

       •   identified Ohio Medicare CBAs and their payment rates;

       •   identified DME items included in Medicare’s Competitive Bidding Program that are
           reimbursed by the Ohio Medicaid program;

       •   obtained and reviewed a list of Ohio Medicaid payments for 43 selected DME items for
           April 1, 2010, through March 31, 2011;

       •   calculated the average of the two Medicare CBA payment rates available in Ohio;

       •   compared the Ohio Medicaid program payment for DME items with the average Ohio
           Medicare CBA payment for the same DME items during the review period;



9
    Three of the forty-three selected DME items are for diabetic supplies that utilize mail-order pricing.
10
   In our audit of diabetic test strips, we identified $8 million that the Ohio Medicaid program could have saved
during State fiscal year 2011 if it had established a competitive bidding program or used manufacturer rebates
(report number A-05-11-00098).

The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                                        7
                                                                                        APPENDIX A


    •   determined the number of payments that were reimbursed at Ohio’s Medicaid maximum
        payment rate for 43 selected items;

    •   calculated the amounts that the State agency could have paid if the Ohio Medicaid
        program had used competitive bidding to obtain pricing similar to Medicare’s
        Competitive Bidding Program; and

    •   compared the amount that the State agency reimbursed providers with the amount
        calculated under the Medicare CBA payment rate to determine the approximate amount
        that Ohio could have saved.

Although we did not independently verify the reliability of the Medicaid paid claim data, we
discussed the data with State agency officials, sorted paid claims to identify variations in
payment rates, and compared the total number of DME claims to other State Medicaid programs
in making a subjective determination of data reliability. In our opinion, the data obtained from
the State agency was sufficiently reliable for this audit.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                       8
                  APPENDIX B: STATE AND FEDERAL REQUIREMENTS FOR
                      DURABLE MEDICAL EQUIPMENT PURCHASES

OHIO REQUIREMENTS FOR
DURABLE MEDICAL EQUIPMENT PURCHASES

Ohio Administrative Code 5101:3-10-01 allows the State agency to permit eligible providers,
including hospitals, physicians, podiatrists, advanced practical nurses, clinics, and pharmacies, in
the Ohio Medicaid program to bill for DME items.

Ohio Administrative Code 5101:3-1-60 allows the State agency to reimburse providers the lesser
of the submitted charge or the Medicaid maximum payment rate. The maximum payment rates
are 100 percent of the amount set by the State agency on the Medicaid fee schedule. The
payment is determined in accordance with Federal and State laws and regulations.

FEDERAL REQUIREMENTS FOR
DURABLE MEDICAL EQUIPMENT PURCHASES

Medicaid Durable Medical Equipment

Section 1915(a)(1)(B) of the Social Security Act (the Act) and requirements established in
42 CFR § 431.51(d) and 42 CFR § 431.54(d) allow the Medicaid agency to establish special
procedures for the purchase of medical devices through a competitive bidding process or
otherwise if the State assures, in the certification required under section 431.51(d), and CMS
finds that adequate services or devices are available to beneficiaries under the special procedures.

Medicare Durable Medical Equipment

Section 1834(a) of the Act provides the requirements for the DME fee schedule payment
methodology. Medicare generally pays for most medical equipment and supplies on the basis of
fee schedules. Pursuant to 42 CFR § 405.502(a), the law allows for flexibility in the
determination of reasonable charges to accommodate reimbursement to the various ways in
which health services are furnished and charged for. The criteria for determining what charges
are reasonable include the prevailing charges in the locality for similar services. The Medicare
Prescription Drug, Improvement, and Modernization Act of 2003 11 mandated that CMS establish
the Competitive Bidding Program for selected durable medical equipment, prosthetics, orthotics,
and supplies categories by January 1, 2011, in competitive bidding areas. Round 1 of the
Competitive Bidding Program was implemented on January 1, 2011, for nine product categories
in nine competitive bidding areas.




11
     P. L. No. 108-173, section 302, amending Social Security Act § 1847.

The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                       9
           APPENDIX C: POTENTIAL COST SAVINGS FOR SIX SELECTED
            DURABLE MEDICAL EQUIPMENT PRODUCT CATEGORIES

                                                          Average OH
    Product                            OH Medicaid                     Potential        Savings
                        HCPCS                              Medicare
    Category                              Costs                       Cost Savings        %
                                                          CBA Costs
                         E1390             $4,414,538      $3,011,218   $1,403,320        32
                         E0431                443,017         322,030      120,987        27
    Oxygen               E0439                184,702         115,909       68,793        37
 equipment and           E0424                 69,305          43,492       25,813        37
    supplies             E0434                 31,838          23,143        8,695        27
                         E1391                    307             210           97        32
                         Total             $5,143,707      $3,516,002   $1,627,705        32
                         B4150              1,178,646         888,815      289,831        25
                         B4152                636,428         486,687      149,741        24
                         B4153                712,114         602,246      109,868        15
                         B4154                261,320         183,157       78,163        30
                         B4034                194,455         171,455       23,000        12
     Enteral             B4155                 82,295          65,269       17,026        21
    nutrients,
                         B4036                128,913         123,863        5,050         4
 equipment, and
    supplies             E0776                 15,450          11,985        3,465        22
                         B4082                  7,074           6,247          827        12
                         B4087                 10,351           9,662          689         7
                         B4081                  2,878           2,432          446        15
                         B4083                     37              30            7        19
                         Total             $3,229,961      $2,551,848     $678,113        21
                         A4259              1,409,582         827,626      581,956        41
     Diabetic            A4258                 48,922          21,384       27,538        56
     supplies            A4256                 37,299          29,779        7,520        20
                         Total             $1,495,803        $878,789     $617,014        41
                         E0601                144,693         111,880       32,813        23
                         E0470                108,870          76,725       32,145        30
                         E0562                108,442          84,324       24,118        22
  CPAP, RAD,             A7035                 48,965          31,347       17,618        36
   and related           A7037                 35,822          22,951       12,871        36
  supplies and           A7039                  5,609           3,621        1,988        35
   accessories           A7033                  2,926           2,466          460        16
                         A7038                  5,246           4,843          403         8
                         A7036                  1,618           1,285          333        21
                         Total               $462,191        $339,442     $122,749        27



The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                      10
                                                                                        APPENDIX C


                                                          Average OH
    Product                             OH Medicaid                    Potential           Savings
                        HCPCS                              Medicare
    Category                               Costs                      Cost Savings           %
                                                          CBA Costs
                        E0260                 $57,758         $42,614      $15,144          26%
                        E0303                   6,079           4,714        1,365          22%
  Hospital beds         E0310                   2,156           1,475          681          32%
   and related
   accessories          E0304                   1,850           1,574          276          15%
                        E0261                   1,070             868          202          19%
                         Total                $68,913         $51,245      $17,668          26%
                        E0143                  71,610          64,736        6,874          10%
                        E0148                   6,544           4,706        1,838          28%
                        E0154                   2,263           1,760          503          22%
  Walkers and           E0135                  14,805          14,534          271           2%
    related             E0156                   5,145           5,018          127           2%
  accessories           E0149                  20,250          20,131          119           1%
                        E0159                     300             263           37          12%
                        A4637                      23              18            5          22%
                         Total               $120,940        $111,166       $9,774           8%
                      Grand Total         $10,521,515      $7,448,492   $3,073,023          29%




The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                      11
            APPENDIX D: POTENTIAL COST SAVINGS FOR 43 SELECTED
                    DURABLE MEDICAL EQUIPMENT ITEMS

                                                                     Ohio
                                                         Ohio                   Potential
                                                                    Medicare
                                                        Medicaid               Cost Savings
HCPCS            Product Brief Description                       CBA Payment
                                                        Payment                 (Per Unit
                                                                 Rate (Average
                                                          Rate                 Reimbursed)
                                                                 of Two CBAs)
                  Hospital bed, extra heavy
 E0304                                                   $616.54         $524.57        $91.97
                         duty (rental)
               Stationary compressed gaseous
 E0424                                                    167.00          104.80        62.20
                    oxygen system (rental)
               Stationary liquid oxygen system
 E0439                                                    167.00          104.80        62.20
                            (rental)

 E0470        Respiratory assist device (rental)          190.00          133.90        56.10

                  Hospital bed, heavy duty,
 E0303                                                    243.18          188.57        54.61
                     extra wide (rental)

 E0562                    Humidifier                      225.92          175.68        50.24

                 Oxygen concentrator, single
 E1390                                                    153.64          104.80        48.84
                    delivery port (rental)
                 Oxygen concentrator, dual
 E1391                                                    153.64          104.80        48.84
                    delivery port (rental)

 E0310                   Bed side rails                   143.74           98.35        45.39

 E0148                Walker, heavy duty                  109.07           78.44        30.63

 E0260       Hospital bed, semi-electric (rental)          98.90           72.97        25.93

 E0601               CPAP device (rental)                  77.50           59.93        17.57

 E0261       Hospital bed, semi-electric (rental)          89.20           72.31        16.89

 E0776                      IV pole                        75.00           58.18        16.82

                 Headgear used with airway
A7035                                                      34.95           22.38        12.57
                      pressure device

 E0154           Walker, platform attachment               51.44           39.99        11.45




The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                 12
                                                                                                 APPENDIX D


                                                                            Ohio
                                                                Ohio                   Potential
                                                                           Medicare
                                                               Medicaid               Cost Savings
HCPCS                 Product Brief Description                         CBA Payment
                                                               Payment                 (Per Unit
                                                                        Rate (Average
                                                                 Rate                 Reimbursed)
                                                                        of Two CBAs)
                       Tubing used with airway
 A7037                                                          $28.75            $18.42           $10.33
                           pressure device

 A4258              Lancet spring-powered device                  13.75            6.01             7.74

                       Portable gaseous oxygen
 E0431                                                            28.25           20.54             7.71
                            system (rental)
                        Portable liquid oxygen
 E0434                                                            28.25           20.54             7.71
                            system (rental)

 E0143                 Walker, folding, wheeled                   66.00           59.67             6.33

                       Filter used with airway
 A7039                                                            12.30            7.94             4.36
                           pressure device
                 Replacement pillow for use on nasal
 A7033                                                            21.36           18.00             3.36
                       cannula type interface

 B4081                     Nasogastric tubing                     19.19           16.22             2.97

 A4259                  Lancets (per 100 pack)                    7.00 12          4.11             2.89

                      Chinstrap used with airway
 A7036                                                            13.60           10.80             2.80
                           pressure device

 B4087              Gastrostomy/jejunostomy tube                  29.66           27.69             1.97

                          Replacement brake
 E0159                                                            15.00           13.15             1.85
                         attachment for walker

 B4082                     Nasogastric tubing                     14.29           12.62             1.67

 A4256                 Calibrator solution/chips                   6.25            4.99             1.26

 E0135                      Walker, folding                       47.00           46.14             0.86

 E0149               Walker, heavy duty, wheeled                135.00            134.21            0.79




12
     Ohio’s Medicaid maximum payment rate of $0.07 per unit multiplied by 100 units equals $7.

The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                           13
                                                                                        APPENDIX D


                                                                     Ohio
                                                         Ohio                   Potential
                                                                    Medicare
                                                        Medicaid               Cost Savings
HCPCS             Product Brief Description                      CBA Payment
                                                        Payment                 (Per Unit
                                                                 Rate (Average
                                                          Rate                 Reimbursed)
                                                                 of Two CBAs)
 B4034             Enteral feeding supply kit             $3.72            $3.28           $0.44

                      Replacement tip for
 A4637                                                     1.90             1.46           0.44
                      cane/crutch/walker

 E0156            Seat attachment for walker              15.00            14.63           0.37

 B4083                   Stomach tube                      2.05            1.69            0.36

                Enteral formula, nutritionally
 B4154                                                     1.12            0.79            0.33
             complete for special metabolic needs
                Enteral formula, nutritionally
 B4153                                                     1.75            1.48            0.27
                           complete
              Disposable filter used with airway
 A7038                                                     3.25            3.00            0.25
                       pressure device
                  Enteral feeding supply kit,
 B4036                                                     4.85            4.66            0.19
                          gravity fed
                Enteral formula, nutritionally
 B4155                                                     0.87            0.69            0.18
                incomplete modular nutrients
                Enteral formula, nutritionally
 B4150                                                      0.61           0.46            0.15
                complete with intact nutrients
                Enteral formula, nutritionally
 B4152                                                     0.51            0.39            0.12
                 complete, calorically dense




The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                   14
                           APPENDIX E: STATE AGENCY COMMENTS 




            Ohio                   Office of
                                   Medical Assistance

                                   John R . Ka sich, Governor
                                   John B. McCarthy, Direct or


            March 11, 2013

            Ms. Gloria l. Jarmon
            Deputy Inspect or Genera l
            Office of Inspector Genera l
            Office of Audit Services, Region V
            233 North M ich igan, Suite 1360
            Chicago, IL 60601

            Re: report number : A-05 -12-00038

            Dear Ms. Jarmon:

            The Office of Medical Assistance is in receipt of your recent report titled The Ohio Medicaid Program
            Could Significantly Lower Payment Rates for Selected Durable Medical Equipment and Supplies.

            Like CMS, we support competitive bidding, believing t he market is most efficient at setting p rices. There
            are some importarnt dist inctions, however, between how we have struct ured the competitive bidding
            process compar ed to the approach by Medicare. Chief among these is that under Medicare providers
            who don't submit winning bids are excluded f rom participating in the market. This can and surely does
            result in job losses, particularly for sma ll er fi rms and t hose lacking a diversif ied payer mix.

            We've re cently t aken a d ifferent approach to competitive bidding, choosing instead to employ what's
            often referred t o as the manufacturer 's model. Under th is model, any w illing DME provider can
            compete for market sha re, and reimbu rsement remains at the historica l level of t he fee schedule.
            Savings arise in the form of manufactur er rebates, similar to how Medicaid agencies have purchased
            pharmaceut icals f r om the drug com panies f or yea rs. Just last month we awarded vendor contracts for
            diabetic test strips and supplies using the manufacturer's model with a reduction in expenditures of 76
            percent as a resu lt .

            Our state economy seems at long last t o be on the mend, but we remain vigilant about the i mpact policy
            can have on that recovery. We concur w ith your recommendation to adopt select ive contracting and
            differ only on the form t hat contracting should take. We believe our approach yields equivalent savings
            with a far more sa lutary effect on employment.

            Thank you fo r you1r report. We appreciate the recommendat ions and look forward to collaborating with
            you on future endeavors.

            Sincerely,



            Joh n B. McCarthy
            State Medicaid Dir ector

                                                     50 WestTown Street, Suite 400
                                                         Columbus, Ohio 43215
                                                                 lf•.ohio.gov

                                          An Equal Opportunlly Employer and Service Prov1der




The Ohio Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-05-12-00038)                                                                                              15
